          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





          Report of Inspection 



     Voice of America’s 

   Persian News Network

 Report Number ISP-IB-09-27, March 2009




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED




   PURPOSE, SCOPE AND METHODOLOGY OF THE 

                 INSPECTION

    This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the President’s Council on Integrity and Efﬁciency, and the
Inspector’s Handbook, as issued by the Ofﬁce of Inspector General for the U.S. De-
partment of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE

    The Ofﬁce of Inspections provides the Secretary of State, the Chairman of the
BBG, and Congress with systematic and independent evaluations of the operations
of the Department and the BBG. Inspections cover three broad areas, consistent
with Section 209 of the Foreign Service Act of 1980:

   • 	 Policy Implementation: whether policy goals and objectives are being ef-
       fectively achieved; whether U.S. interests are being accurately and effectively
       represented; and whether all elements of an ofﬁce or mission are being
       adequately coordinated.

   • 	 Resource Management: whether resources are being used and managed with
       maximum efﬁciency, effectiveness, and economy and whether ﬁnancial trans-
       actions and accounts are properly conducted, maintained, and reported.

   • 	 Management Controls: whether the administration of activities and opera-
       tions meets the requirements of applicable laws and regulations; whether
       internal management controls have been instituted to ensure quality of per-
       formance and reduce the likelihood of mismanagement; whether instances
       of fraud, waste, or abuse exist; and whether adequate steps for detection,
       correction, and prevention have been taken.

METHODOLOGY

    In conducting this inspection, the inspectors: reviewed pertinent records; as ap-
propriate, circulated, reviewed, and compiled the results of survey instruments; con-
ducted on-site interviews; and reviewed the substance of the report and its ﬁndings
and recommendations with ofﬁces, individuals, organizations, and activities affected
by this review.




               SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED



                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Acting Inspector General




                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                                TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

   Strategic Planning and Budget Integration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

   PNN Programming . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

   Following the VOA Charter . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

AUDIENCE RESEARCH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

RESOURCE MANAGEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

   Administrative Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

   VOA’s New York News Bureau . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

  Human Resources Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

  Personal Property Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

  Financial Management and Procurement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

PERSIAN NEWS NETWORK PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

   Appendix A: Voice of America Charter . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

   Appendix B: PNN Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

   Appendix C: Persian News Network Funding . . . . . . . . . . . . . . . . . . . . . . . . . . . 53





                             SENSITIVE BUT UNCLASSIFIED

                 SENSITIVE BUT UNCLASSIFIED





                         KEY JUDGMENTS

• 	 Persian News Network (PNN) is performing a vital function. It is the only
    platform from which the U.S. Government can reach an Iranian audience
    with unbiased news and information about U.S. foreign policy and American
    life. The broadcasting mission of Radio Free Europe/Radio Liberty’s Radio
    Farda is to provide information on news and events within Iran.

• 	 Voice of America (VOA) successfully built PNN (formerly Persian Service)
    into its ﬁrst full-ﬂedged network in an extraordinarily short period of time.
    Given the U.S. strategic interest in communicating with Iranians, PNN repre-
    sents a major achievement in setting up a network that reaches approximately
    29 percent of Iranians in Iran.

• 	 Rapid growth brought a number of problems along with it, including ques-
    tions of program mix and quality and a lingering atmosphere of discontent
    among employees. Ameliorating them will be a necessary step in the consoli-
    dation of VOA’s gains in an important broadcasting arena.

• 	 The increasing importance of the Internet in Iranian society provides VOA
    with a platform that has the potential to dramatically increase its audience. A
    strategic plan to exploit that potential, in a manner that complements Radio
    Farda’s Internet efforts, is essential as PNN moves forward.

• 	 The explosive growth of PNN television has come, in part, at the expense of
    radio. VOA radio broadcasts to Iran may have reached a point of marginal
    return on investment given the round-the-clock broadcasts of Radio Farda,
    the likelihood of PNN increasing its focus on the Internet as a platform to
    connect with audiences inside Iran, and overall resource restraints. Continu-
    ation of PNN radio is an appropriate issue for the BBG language service
    review process.




    OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   1 .


                 SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



             • 	 There is widespread perception among employees that PNN hiring practices
                 and other personnel actions have not been transparent and may have favored
                 certain groups.

            The inspection took place in Washington, DC, between October 3 and Decem-
        ber 17, 2008, and in New York City on November 14, 2008, at Voice of America’s
        new bureau. Ambassador John Monjo (Senior Advisor/Consultant), Martha Goode
        (supervisory senior inspector), Anne Carson, Mark Jacobs, and Kristene McMinn
        conducted the inspection.




2 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                                       CONTEXT

    PNN serves a vital role in achieving American foreign policy objectives in the
Islamic Republic of Iran. The U.S. relationship with Iran receives sustained high-level
attention within the U.S. government and in the larger foreign policy community.
However, the United States has not had an embassy in Iran in over 35 years, longer
than most Iranians have been alive (half of all Iranians are under 30 years old). In
Iran, VOA is the ofﬁcial face of America. There are no other available options for
presenting the American point of view inside Iran. Iran’s location in the Middle East,
next to Iraq, makes it a critical area in the quest for international stability. Confront-
ing Iran’s determination to establish a program of nuclear energy with possible
implications for nuclear weapons requires all the tools and diplomatic skills that the
United States has at its disposal. James K. Glassman, former Under Secretary of
State for Public Diplomacy and Public Affairs, said that key U.S. foreign policy goals
are “to diminish the threat to Americans and the rest of the world posed by violent
extremism and weapons of mass destruction and to help people around the world
achieve freedom.”1

    The BBG mission statement is “to promote and sustain freedom and democracy
by broadcasting accurate and objective news and information about the United States
and the world to audiences overseas.”2 To fulﬁll its mandate under the VOA charter,
PNN aims to be “a consistently reliable and authoritative source of news.” 3 (See
Appendix A). PNN strives to present unbiased news as well as objective information
about U.S. society and policy.




1
 “The New Age of Public Diplomacy,” speech delivered at Chatham House, London, on 

September 11, 2008.      

2
 BBG’s Mission Statement, Performance and Accountability Report for FY 2007, p. 4. 

3
 U.S. Information and Educational Exchange Act of 1948, Title V, § 503, Pub. L. No. 80-402, 

62 Stat. 6, as amended (codiﬁed at 22 U.S.C. § 1463).



         OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   3 .


                      SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



            VOA’s radio broadcasts to Iran began in the early 1940s and existed with inter-
        mittent breaks up to the present.4 VOA’s service was originally called Farsi Service,
        based on the language used. In July 2007, VOA’s Persian Service was ofﬁcially named
        PNN, reﬂecting its mission scope.5 BBG has declared PNN to be one of its top
        priorities. Congress has strongly supported it with supplemental funding, consider-
        ing PNN vital in combating radical extremism by providing unbiased news about the
        world and America to Iranians.

            The new network—the ﬁrst of its kind at VOA—broadcasts 24 hours a day,
        including 6 hours of original programming and 1 hour of acquired programming
        (from the History Channel) that are repeated throughout the day, to Persian speak-
        ers throughout Iran.6 PNN reaches millions of people weekly with Persian-language
        programs on television, radio, and the Internet. It has the largest combined radio and
        television audience of all international broadcasters to Iran. Its radio programs in-
        clude ﬁve hours a day on shortwave and the Internet. One hour consists of original
        material and the other four are simulcast transmissions of television material. Some
        audience research indicates that one in four adult Iranians either listens to or watches
        a VOA program at least once a week. Accurate data regarding Iranians’ viewing
        habits is hard to come by, given the challenges of conducting audience surveys in a
        repressive political environment.

            At the time of this inspection, PNN had 83 full-time employees (FTEs), of the
        92 full-time employee slots available. It also had 122 purchase order vendors (POVs)
        and two contractors using other referral agencies. There were also 15 correspondents
        and eight cameramen around the world. PNN costs in FY 2008 for salaries and oper-
        ating expenses totaled $16,299,469.




        4
         VOA broadcast programs to Iran in Persian from 1941-1945, 1949-1960, 1964-1966, and 1979
        to the present.
        5
         The name of the language service had already changed from the Farsi Service to the Persian Ser-
        vice in 2001. BBG management explained that Farsi is an Iranian word and Persian is the English
        equivalent. Other international broadcasters use the word Persian.                     6
                                                                                                As set
        forth in the BBG FY 2009 budget proposal, BBG plans to reach the approximately 16 million
        ethnic Azeris living in Iran with a one-hour RFE/RL radio program, with companion multime-
        dia, online, and mobile programming, at a cost of over $1 million.


4 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                         SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                     EXECUTIVE DIRECTION

    Beginning in 2007, an experienced VOA manager with knowledge of the Per-
sian language was appointed as director of PNN and oversaw the rapid growth of
the Farsi service into VOA’s ﬁrst full-ﬂedged network. It went from about 30 staff
members in 2007 to 83 FTEs plus over 120 contractors. Under this director, PNN
grew from an hour of television broadcasts to 6 hours of daily original program-
ming, along with an hour of acquired material that requires translation. Those 7
hours are repeated to make up 24 hours a day, 7 days a week. In 2008, shortly before
the inspection began, a new acting director of PNN was appointed.

    The acting director reports to senior VOA management including the associate
director for Language Programming, the executive editor, and the Director of VOA.
Inside PNN, the acting director supervises the work of all FTEs and contractors and
oversees the production of material for television, radio, and Internet.

    At the management level, below the acting director are an executive editor, a
senior executive producer, an operations manager, and an executive ofﬁcer. (See Ap-
pendix B, Organization Chart provided by PNN). The chart may not reﬂect the ac-
tual management relationships.) At the production level, individual television shows
are the responsibility of an executive producer, working with a managing editor. At
present none of the executive producers speaks Persian, while all of the managing
editors do. In part because of the language issue, managing editors report not to the
executive producer of their show but to a Persian-speaking senior executive editor.

     This arrangement is the source of confusion and sometimes of conﬂict. Lacking
the language of the programs they oversee, as well as a background in Iranian affairs,
executive producers must rely on their managing editor to approve the shows’ con-
tent and resolve differences of opinion among staff. When controversial or problem-
atic issues arise, the executive producers are perceived to lack a full understanding of
the issue. Staff members frequently express the view that executive producers make
their decisions based on their personal relationships with Persian-speaking staff
rather than on the merits of the case at hand.




        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   5 .


                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




            PNN’s extraordinary and unusually rapid growth represented a huge challenge
        to management. The FTE staff was greatly increased, and a large number of POVs
        were also brought on board; at present, there are more POVs working in PNN than
        FTEs. While VOA is to be commended for successfully meeting the expansion
        challenge, the scale and rapidity of growth have been accompanied by a number of
        problems inside PNN.

            The main problem that PNN faces is its atmosphere of discontent. The OIG
        inspection team heard about perceptions of unfairness, charges of political bias, the
        operation of cliques, and the hiring and rewarding of unqualiﬁed people. Some more
        experienced staff members associated with the service’s declining radio operations
        are critical of newer staff members hired for the expanding television programming.
        The issue of Persian-language competency is also a point of contention, as well as
        the issue of cultural norms and expectations. Some Persian-speaking and Iranian-
        born employees ﬁnd American management insensitive to Iranian ways; conversely,
        some American managers believe that Iranian and Iranian-American employees have
        not adapted to the expectations and atmosphere of an American workplace. VOA
        management is aware of these challenges. It told the OIG team that it does not
        consider such issues uncommon for a broadcasting organization with a mixture of
        backgrounds and viewpoints, and is taking steps to address the condition.

           While everyone involved with the operation is cognizant of the importance of
        VOA broadcasting to Iran, some of those who work in PNN appear to lack a clear
        understanding of the mission of PNN and the centrality of the VOA charter to their
        work, underscoring the need for additional training.

             The acting director has been at PNN a short period of time but already has
        instituted some changes that have been received positively by PNN staff. The acting
        director has held one-on-one meetings with a large number of PNN staff; increased
        the number of meetings and sought to resolve conﬂicts by sitting down with the par-
        ties involved; and focused on program content, reiterating the centrality of the VOA
        charter and the message that the only “ism” permissible at VOA is journalism. A
        majority of staff indicated their approval of these changes, although most expressed
        the view that much more needs to be done to make PNN an efﬁcient and harmoni-
        ous broadcast operation.

             As promising as these changes are, VOA needs to consolidate the gains made by
        PNN; improving internal communication will be central to this effort. This includes
        holding regular and more frequent meetings, including town hall meetings, among
        PNN staff at all levels, to ensure that everyone understands his or her job responsi-
        bilities; the goals and objectives of the program; what other program staff are work-
        ing on; and the role of the VOA charter and mission in the context of PNN. Man-

6 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                         SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




agement may also explore other means and mechanisms for strengthening internal
communication to dispel the negative perceptions and misinformation under which
many staffers labor. Management transparency will help to address rumor or suspi-
cion at different levels of the network.

    While those who work in PNN tend to generally appreciate the importance of
their work, they are not always clear about the mission, PNN goals and objectives, or
of the speciﬁc program in which they are engaged. VOA’s production of a statement
of purpose connecting the VOA charter with goals and objectives for each of the
network’s programs would enhance the staff ’s understanding of their responsibilities
by putting it in a broader context.

     VOA’s clariﬁcation of the lines of decisionmaking authority for individual pro-
grams may help to resolve misunderstandings about roles and responsibilities that ex-
ist in PNN. This will require some reﬂection on the importance of Persian language
ability among managers. VOA having managing editors report to a senior executive
editor who does not have line responsibility for individual programs may be a tactical
solution that calls for some strategic rethinking. In addition, the roles and respon-
sibilities for like functions of program anchors appear to vary by program. VOA’s
standardization of expectations and responsibilities would likely improve both per-
formance and the overall atmosphere.

   Recommendation 1: Voice of America should develop and articulate a state-
   ment of Persian News Network program goals and objectives consistent with
   Voice of America’s mission and ensure that it is disseminated and understood.
   (Action: VOA)




   Recommendation 2: Voice of America should, as appropriate, revise the Per-
   sian News Network’s organizational structure to clarify the lines of responsibil-
   ity and authority. (Action: VOA)




   Recommendation 3: Voice of America should develop and implement an
   internal communication plan for the Persian News Network to increase the
   interaction between its elements, both horizontally and vertically, and to share
   important information with the staff. (Action: VOA)




        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   7 .


                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





8 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





POLICY AND PROGRAM IMPLEMENTATION



STRATEGIC PLANNING AND BUDGET INTEGRATION
    Ofﬁcials in BBG’s strategic planning area told the OIG team that PNN manage-
ment has been an active participant in performance planning. Its annual performance
plan meshes with BBG’s strategic plan, on which budget decisions are based. BBG’s
mission, as stated in its 2008-2013 strategic plan, is

    to promote freedom and democracy and to enhance understanding through mul-
    timedia communication of accurate, objective, and balanced news, information,
    and other programming about America and the world to audiences overseas.7

    Implementation strategies from BBG’s 2008-2013 strategic plan that are relevant
to PNN include:

    • 	 enhancing program delivery across all relevant platforms

    • 	 building on the BBG reach and impact within the Muslim world

    • 	 helping audiences in authoritarian countries understand the principles and
        practices of democratic, free, and just societies

    • 	 employing modern communication techniques and technologies

    • 	 facilitating citizen discourse; and broadening cooperation within U.S. public
        diplomacy




7
 By comparison, the Department FY 2007-2012 strategic plan, Near East region, Iran, is: “The
single largest long-term threat to regional stability and peace is Iran…In the years ahead, we
anticipate increased needs for broadcasting, cultural and educational exchanges, and democracy
programming in Iran.”


         OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   9 .


                      SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




             BBG and PNN are also in accord with the FY 2002 President’s Management
         Agenda, part ﬁve, entitled “Budget and Performance Integration.”8 The purpose of
         the agenda is to formally integrate performance with budget decisions. By participat-
         ing in BBG’s cycle of annual performance plans and language service reviews, PNN
         adjusts its programs to become more effective, based on International Broadcasting
         Bureau (IBB) recommendations and formal and anecdotal audience research. For
         example, in the September 16, 2008 follow-up to an annual review, VOA’s Ofﬁce of
         the Associate Director for Programs said that it was in the process of meeting with
         PNN regularly to discuss conforming to the VOA charter.

             Speciﬁcally, at the working level, the OIG team was told that PNN had been
         very active in creating its plan. A group had worked closely with the BBG to link the
         PNN plan with BBG’s strategic plan. PNN’s planning group came up with the areas
         that were most important to address: training, management, maintaining credibility,
         and focusing on BBG’s strategic plan.

             The plan template includes a section that elicits information for the 1997 Gov-
         ernment Performance and Results Act requirements. The plan has to include what
         resources PNN is working with from BBG’s budget. There should be no unrealistic
         requests. Also, PNN’s plan must mention any enhancements that PNN gets. PNN
         has to show that it has been accountable for that money and is using it appropriately.
         There is also a section where PNN can discuss the challenges it faces in the future,
         regardless of funding. It can describe envisioned strategies not necessarily tied to
         resources.



         PNN PROGRAMMING
             PNN uses television, radio, and the Internet to get its programming to its audi-
         ence in Iran. There are 7 hours of television programming a day, with 6 hours of
         original programming and 1 hour of acquired programming. These 7 hours are
         repeated throughout the day for a total of 24 hours. There are 5 hours a day of radio
         (1 hour original radio only and 4 hours of radio or television simulcasts on short-
         wave and the Internet). There is an initiative to increase the use of the Internet and
         to use it as an important part of a connective mix with television and radio.




         8
          OIG reviewed this issue BBG-wide in 2004: OIG Report No. IBO-A-05-01, Review of the Broad-
         casting Board of Governors’ Progress in Linking Its Budget Process and Strategic Planning (December 2004).


10 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    In general, the process for getting a television show on the air each day matches
that of commercial television. Ideas are proposed by PNN writers and producers.
They are discussed at early morning editorial meetings. A representative from VOA’s
Central News discusses the hot topics of the day. Managing editors review whether
these topics would be of interest to Iranian audiences. They are put together through
the work of executive producers, managing editors, anchors, writers, translators, and
technical production crews. Each producer is required to prepare a report after each
program.

Current Television Programming

   After an extensive personnel expansion in 2007, PNN now has the following
programs, with hours representing the summer and fall schedule:

   • 	 Today in Washington (9:30 a.m. Eastern Standard Time (ET)/6 p.m. in Iran)
       — a brief overview of the top news headlines, a quick look at major news
       events taking place in Washington and around the world, and a preview of
       what’s coming up on other PNN shows.

   • 	 History Channel (9:45 a.m. ET/6:15 p.m. in Iran) — cultural programming
       from the A&E Television Network featuring documentaries highlighting
       events, individuals, and inventions that have historically shaped the cultural
       fabric and political landscape of the United States.

   • 	 Newsbrief (10:30 a.m. ET/7 p.m. in Iran) – 10 minutes of the top stories mak-
       ing headlines around the world.

   • 	 Today’s Woman (10:40 a.m. ET/7:10 p.m. in Iran) — a contemporary news
       program with a pool of regular participants who discuss and debate issues
       impacting women around the globe.

   • 	 News & Views (11:30 a.m. ET/8 p.m. in Iran) — PNN’s ﬂagship program
       expanded to 2 hours in July 2007. This 2-hour program features live news
       coverage of the latest headlines from Washington, Iran, and across the globe.
       The expanded News and Views includes daily live reports from the Depart-
       ment and Capitol Hill.

   • 	 Roundtable with You (1:30 p.m. ET/10 p.m. in Iran) — PNN’s longest run-
       ning program is a talk show with the entire hour devoted to popular guests
       discussing current events, politics, pop culture, and global health. Includes
       viewer participation via phone calls and e-mails.


        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   11 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



              • 	 Late Edition (2:30 p.m. ET/11 p.m. in Iran) —Begins with a closer look at the
                  day’s top story. Targeted to a younger demographic, the program also fea-
                  tures segments regarding Iran’s student movement, health, technology, sports,
                  entertainment, and culture.

              • 	 NewsTalk (3:30 p.m./12 a.m. in Iran) — PNN’s original programming block
                  concludes with this news discussion program featuring a regular panel of
                  experts who examine and dissect the day’s headlines.

         Optimum Hours and Stafﬁng

             BBG and VOA management as well as most of the PNN staff, with whom the
         OIG team talked, point to the increase from 1 to 6 hours of original programming a
         day as a great accomplishment. However, they question whether PNN resources are
         sufﬁcient to support 6 hours of quality original programming a day.

              VOA management told the OIG team that there is no industry standard for the
         number of workers needed to put on a show. Nevertheless, the OIG team heard
         from many people on the subject. Some executive producers felt that they did not
         have enough people. One producer said that there were never enough people. An-
         other said that the small number of people she had for her show did not seem fair
         compared with the number that others had. Many FTEs and contractors commented
         on their own situation. Two young contractors felt that their shows would do better
         with just a third of the existing stafﬁng if the management were good. An experi-
         enced producer commented that the young contractors were probably not realis-
         tic. Others said that there were people in their group who were idle and not being
         utilized.

             Another thing for PNN to consider at this point is whether there are too many
         or too few program hours, or whether existing staff can improve the quality of the
         programming offered within the current broadcast schedule. The majority of those
         who commented on this question, managers and workers, felt that PNN would not
         suffer if its hours were reduced and attention were focused on quality rather than
         quantity. IBB’s April 2008 performance review of PNN suggested that PNN con-
         sider cutting down the number of shows. As a VOA ofﬁcial said, now is the time for
         PNN to take a step back and assess whether the stafﬁng is sufﬁcient to improve the
         quality of its programming. PNN’s credibility is vital to its success and to U.S. foreign
         policy, and quality affects credibility. (The issue of quality will also be discussed in
         the section on the VOA charter and transparency.)




12 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




   Recommendation 4: Voice of America should review its programming, in-
   cluding the number of hours, and determine if changes should be made in or-
   der to increase quality. (Action: VOA)




   Recommendation 5: Voice of America should conduct an assessment of the
   number of workers needed for each of its television programs and allocate its
   human resources accordingly. (Action: VOA)



PNN on the Internet

    PNN’s Performance Plan for the years 2009-2011 articulates ambitious yet
sensible goals to increase the network’s presence and reach on the Internet. These
include expanding and reformatting the Web site with additional multimedia and
interactive features. Among proposed additions are a video of the day, slideshows,
a guest-of-the-week online chat, and an American Life page. In 2006, when VOA
received enhancement funds for PNN, management set a goal of establishing a more
frequently updated Web presence by 2008.

    To date, some progress has been made, and there is general agreement in PNN
that their Web presence will play an increasingly important role in the media mix in
the coming years. They also agree that they have not yet exploited its full potential.
Getting to that point will require a detailed plan of action with realistic targets and
timelines, along with an assessment of stafﬁng needs. Joining the Web site with the
English-language news desk now under consideration is an idea that merits explora-
tion. To draw readers to the Web site and keep them coming back, PNN will need to
update the content frequently and regularly. For that reason, real-time access to fresh
material is a necessity for the Web staff. Translating and providing such material to all
elements of PNN will be the goal of the news desk.

    Moving forward with the Web site calls for an assessment of Iranian habits and
patterns of Internet usage, to the extent that accurate data can be obtained. Some
research suggests that, while Internet use continues to rise, cost remains a limiting
factor. The repressive political environment may also ﬁgure in as a limiting factor. At
the same time, VOA’s target audience in Iran — the high percentage of the popula-
tion’s young people — is most likely to use and be comfortable with the Internet and
technology.



        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   13 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



              Despite potential constraints on access and availability among Iranians, PNN
         management clearly sees that creative, interactive growth of their Web site presence
         is a vital part of the overall strategy to communicate with Iranian audiences. It also
         understands that BBG’s strategic plan for reaching Iranian audiences includes the
         complementary coverage provided by Radio Farda and PNN Web sites.



             Recommendation 6: Voice of America should continue to develop and
             implement a plan to build the Persian News Network’s Web presence into an
             interactive 24/7 operation, with timelines and measurable milestones. This Web
             presence should complement Radio Farda’s Web efforts. (Action: VOA)



         PNN Radio

             VOA’s radio broadcasts to Iran began in the early 1940s and have existed with
         intermittent breaks up the present. It was originally called the Farsi Service. In July
         2007, the name was changed to the Persian News Network.

             At present, PNN produces one hour of original radio programming, which is
         broadcast during the Tehran breakfast hour. In addition, 4 hours of PNN television
         are simulcast on radio. Political constraints prevent the use of afﬁliate stations inside
         Iran. Shortwave, cross-border medium wave, and the Internet are the only feasible
         means of radio transmission. Currently all VOA radio broadcasting to Iran is done
         by shortwave.

              In 2002, VOA joined with Radio Free Europe/Radio Free Liberty (RFE/RL) to
         begin broadcasting Radio Farda to Iran. In July 2008, Radio Farda moved to RFE/
         RL exclusively. Radio Farda broadcasts 24 hours a day to Iran from AM, shortwave,
         and digital audio satellite, as well as by Internet. The station offers news, informa-
         tion, public affairs, and entertainment targeting Iran’s population of young people.
         It functions as a surrogate but also includes information and interviews that are not
         connected to Iran.

             During the same period that saw the rise of Radio Farda, PNN television expe-
         rienced signiﬁcant growth. That process drew resources, personnel, and attention
         away from radio programming. Staff numbers dwindled as personnel were assigned
         to television programs, and morale among those who remain is conspicuously low.
         VOA management said that this contributed signiﬁcantly to the discontent between
         this group and the new television staff.


14 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    Inside VOA, no consensus appears to exist on the importance or effectiveness of
PNN radio. Some evidence suggests that perhaps 2 percent of the population listens
to PNN radio, and anecdotes from travelers to Iran sometimes refer to avid listen-
ers of the short-wave broadcasts. However, that same anecdotal evidence suggests
that shortwave listeners are people over 70 years of age. PNN’s target demographic
group is Iran’s burgeoning population of young people. Inside VOA and PNN,
strong feelings both for and against radio were voiced, yet virtually all agree that it is
presently a pale shadow of its former self.

    In the context of a dramatically changed media environment, VOA does not ap-
pear to have clearly delineated a mission for Persian-language radio as part of PNN,
or to have engaged in strategic rethinking regarding its role. BBG conducts an annual
language service review to set operating priorities for the following year such as the
use of radio to achieve its goals.



    Recommendation 7: The Broadcasting Board of Governors should, in coor-
    dination with Voice of America, in the context of its annual language service re-
    view process, determine whether Voice of America radio broadcasting in Persian
    should be discontinued or reinvigorated. If it is to be reinvigorated, it should
    be given a clear mission as an integral part of the Persian News Network, along
    with a clear estimate of resources to accomplish this mission. (Action: BBG, in
    coordination with VOA)

News Desk

    PNN’s FY 2009-2011 Annual Performance Plan establishes a 2009 target for
creating a Persian-language news desk, a goal that is not just laudable but essential.
Having a central point for producing translations of news articles into the Persian
language will substantially improve efﬁciency at the network and produce other ben-
eﬁts at the same time. It represents an important next step in consolidating the gains
made by VOA in launching its ﬁrst full-ﬂedged network.

    At present, a good deal of duplicative translation work is being done by staff
members working on the same issue or subject matter for different programs or in
different media (television, radio, and the Internet). People inside and outside of
PNN commented on the repetition in programming, particularly since its broadcast
hours had increased. While some of this duplication is the result of imperfect com-
munication within PNN, in the absence of a central source and repository of timely
content in Persian, it is likely to continue.


        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   15 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




             In addition to streamlining the translation effort, the news desk will have the
         spin-off beneﬁt of standardizing the Persian language employed by PNN. This
         has been a frequent point of contention among staff who disagree on questions
         of grammar, usage, diction, and tone. A Persian style manual was discussed at one
         point, but it has not yet materialized in ﬁnal form. The OIG team made an informal
         recommendation on this matter.

              As envisioned, the news desk will focus on translation of hard news. Given the
         varied content of PNN programs, there will continue to be a need for translated
         material on “softer” subjects such as culture and American life. Nevertheless, the ma-
         jority of stories needed for PNN programs can and should emanate from a central
         news desk.

             Parallel to the news desk initiative is PNN’s push to expand its presence on the
         Internet. This goal is described at length in the performance plan. Frequent updating
         of content is vital to luring readers to a Web site and retaining their allegiance. Some
         at PNN envision making their Web site the portal of choice for Persian speakers
         to come to every day for news and information. Given that goal, and the changing
         nature of content, linking the Web site and the news desk operations makes sense.
         Making regularly updated translations from the news desk available, via a shared
         drive or an Intranet site, to all PNN elements will help the Web site staff reach their
         goal.

              At present, an employee has been assigned responsibility for overseeing the news
         desk project, and qualiﬁed persons on staff have been identiﬁed as potential full-
         time translators. To date, however, the news desk does not exist. Creating the desk
         and managing the transition to its full implementation is admittedly a daunting task.
         Summarily moving qualiﬁed people, who are among PNN’s most talented translators,
         to the news desk would cripple the shows that they currently work on, by leaving
         them without the staff that produce their broadcast material. Nevertheless, given the
         longer-term importance of the initiative, a thoughtful plan for making that transition
         is imperative.

             Recommendation 8: Voice of America should develop a plan to create and
             implement a Persian-language news desk, including a timetable, measurable
             milestones, and stafﬁng implications. (Action: VOA)


             Recommendation 9: Voice of America should integrate its Persian-language
             news desk with its Internet operation, making regularly updated translations of
             news stories available to the Web site staff on a shared drive or an Intranet site.
             (Action: VOA)


16 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



FOLLOWING THE VOA CHARTER
    There is great interest in VOA’s Persian Language Service in the foreign policy
community, which accentuates the need for open and transparent operations. This is
especially true because PNN’s programming is in Persian. VOA is to be commended
for its initiative in producing “PNN Insights,” a periodic publication in English sum-
marizing PNN’s activities and setting forth a synopsis of its broadcasts. In addition,
translations of randomly selected shows are publicly available on the Internet.9 This
enables BBG and VOA management to monitor PNN broadcasts and to respond to
inquiries about PNN coverage.

      Best Practice: PNN Insider Enhances Communications and Transparency

Issue: Voice of America’s Persian News Network employs more than 200 people in
one capacity or another. It was hard for the workers to keep up with the main televi-
sion programming created by their colleagues. In addition, because the programs are
in the Persian language, non-Persian speakers did not know what was happening on
PNN. There was no way to inform interested parties in BBG, Congress, the Depart-
ment, and other agencies of PNN’s main stories. Finally, PNN had no efﬁcient data-
base that could serve as a quick, historical reminder of PNN’s coverage on a weekly
basis.

Response: About a year and a half ago, PNN began an internal weekly newsletter
called PNN Insider about major PNN programs. It was initially begun to serve as
a historical reference and was distributed at ﬁrst in hardcopy. As PNN increased its
television hours in the last 2 years, it went to an electronic format and distribution.
Every PNN program has a designated representative who sends weekly highlights
to the Insider editor. The newsletter is e-mailed to all PNN employees. It is also sent
to various people in Congress, the BBG, and the Department and to others who
request it.

Result: PNN employees now ﬁnd it easier to keep up with PNN’s output. Non-
Persian speakers have a chance to read summaries of major coverage in English.
The summaries provide transparency into PNN’s work. Now, says a PNN manager,
answers to queries can be found “at the drop of a hat.”




9
    http://www.bbg.gov/pressroom/perisiantranslations.cfm.(last accessed March 10, 2009).


           OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   17 .


                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



            According to the VOA charter, “VOA will serve as a consistently reliable
         and authoritative source of news. VOA news will be accurate, objective and
         comprehensive.”10

         VOA’s journalistic code sets the standard:

              VOA airs all relevant facts and opinions on important news events and issues.
              VOA corrects errors or omissions in its own broadcasts at the earliest opportu-
              nity.

              VOA is alert to, and rejects, efforts by special interest groups, foreign or domes-
              tic, to use its broadcasts as a platform for their own views. This applies to all
              programs and program segments, including opinion or press roundups, programs
              discussing letters, listener comments, or call-in shows. In the case of call-ins,
              views of a single party must be challenged by the interviewer if alternative opin-
              ions are unrepresented.

             When inspecting the BBG and its entities, OIG inspectors must “respect the
         journalistic integrity of all the broadcasters…and may not evaluate the philosophical
         or political perspectives reﬂected in the content of broadcasts.”11 The OIG team
         did not evaluate philosophical or political perspectives. It did, however, hear unsolic-
         ited questions about PNN’s quality from the majority of people with whom it spoke.

             InterMedia survey interviews and other anecdotal information conﬁrm that Ira-
         nians enthusiastically welcome information provided on VOA. The OIG team heard
         that ordinary members of the public throughout the Middle East recognize PNN
         broadcasters, greet them fondly, and praise their work.

             As recounted elsewhere in this report, PNN expanded rapidly to 6 hours of
         original daily programming. It engaged people with varying levels of skills and expe-
         rience and did not always establish clear lines of authority among them. Under these
         circumstances, maintaining quality presents a challenge.

             Several people told the OIG team that PNN television broadcasts do not now
         face substantial competition, but the British Broadcasting Corporation (BBC) has
         plans to begin Persian-language television broadcasts in the near future. Iranians will
         then have a choice. Many PNN workers said that BBC programming would highlight
         any VOA quality shortcomings. Some feared that without PNN’s vigilance, Iranian
         viewers would abandon VOA and turn to BBC.

         10
           22 U.S.C. § 6202(c)(1).
         11
           22 U.S.C. § 6203(a)(3)(B).


18 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




Technical Quality

    PNN has a large staff, many of whom have had distinguished careers in an im-
pressive range of endeavors, but comparatively few have technical training in televi-
sion production. PNN workers have indicated the need for improvement in lighting,
sound, and camera work to create a more professional product; many said that they
are learning on the job. In addition to a need for technical training, the OIG team
learned that certain lines of authority were not clearly delineated. Some PNN work-
ers were concerned that Persian-speaking managing editors did not have the clear
authority to issue directions to staff, while executive producers who possessed the
authority did not speak Persian and were therefore limited in their ability to com-
municate effectively with staff. The senior executive editor speaks Persian and is
responsible for all language-related issues, but he is stretched thin. The OIG team’s
recommendation in the Executive Direction section about clarifying the duties and
authorities of PNN management is meant to address this problem. A recommenda-
tion about technical training appears in the Human Resources section of this report.

    Producers ﬁle a report after each program, but some workers felt the need for
more feedback on their technical contributions and a more robust daily assessment.
IBB’s Ofﬁce of Performance Review does this annually with detailed recommenda-
tions. However, more immediate, if not daily, feedback and assessment is valuable for
continuous improvement. This is being covered to a certain extent by some contrac-
tors and producers with long experience in television production. The OIG team,
made an informal recommendation in this area.

Journalism Standards

     People inside and outside the U.S. Government raised concerns about bias, but
an analysis of that issue is beyond the scope of the OIG inspection. The OIG team’s
discussion of this area is based on information provided to it by interviewees and
does not in any respect represent OIG’s judgment on PNN content. For example,
some PNN FTEs and contractors told the OIG team that, in their view, some of
PNN’s television news coverage could use more balance and objectivity. One re-
spected academic, himself an opponent of the current regime in Iran, feared that
PNN was losing its hard-won credibility. Three U.S. Government ofﬁcials, who oth-
erwise praised PNN and its valuable contribution, echoed these concerns. InterMe-
dia interview survey data quote several Iranian participants who expressed concerns
about objectivity and balance after watching selected PNN broadcasts.




        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   19 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



             Many staff members told the OIG team that the quality of the Persian language
         used is important to preserve balance and accuracy. However, they disagree on
         what constitutes the ideal quality. Points of view may depend on how long a Per-
         sian speaker has been away from Iran or how formally a person was educated in the
         Persian language. The Persian speakers who work for PNN include a relatively senior
         contingent who came out of Iran about the time of the revolution, a younger group
         who have left Iran in recent years for a variety of reasons, and Iranian-Americans
         brought up in Persian-speaking households. The executive producers do not speak
         Persian but the senior executive editor and managing editors are Persian speakers.
         The division director relies on the Persian speakers. There are many well- qualiﬁed
         translators who work from English to Persian, but the OIG team heard of one inci-
         dent when PNN took immediate action in response to an incorrect translation that
         was allegedly intentional.

             PNN managers address these challenges daily. The OIG team, for example, saw
         a series of managerial e-mails describing how an anchor should balance the views of
         guests with appropriate questions and direction of the conversation. PNN has also
         hired experienced television journalists as contractors to serve as mentors to less
         experienced staff. IBB’s performance review also recommended that VOA manage-
         ment review the requirements of the charter and journalistic code with PNN staff.
         PNN management said that this is done continually. Also, as mentioned earlier, PNN
         continues its effort to hire qualiﬁed Persian speakers with an understanding of the
         current Iranian culture. VOA management said that it has often enlisted disinterested
         Persian-speaking experts to provide advisory assistance.




20 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                       AUDIENCE RESEARCH

    BBG’s strategic plan states that it is a research-driven organization. Audience
research is an important part of IBB’s annual performance review, which leads to
BBG’s annual priority-setting exercise, the language service review. As with many
BBG language services, it is difﬁcult to collect statistical information about PNN’s
audience opinion and habits from within a closed regime. Some research conducted
by BBG’s audience research contractor is mixed on the subject of overall viewer-
ship. Its annual surveys indicate a viewership of 25 to 30 percent; yet a survey that
focused on President Ahmadinejad’s visit to New York City pegged viewership at 17
percent, lower but still signiﬁcant. To supplement formal audience research, PNN
receives information from several sources, both formal and informal, indicating that
PNN is part of the lives of a large number of Iranians.

    The OIG team informed PNN of various sources within the Department that
provide information about Iran and international broadcasting. The team established
informal e-mail links between the PNN director and public affairs staff assigned to
U.S. Government ofﬁces in Dubai to ensure that the PNN director receive effective
notiﬁcation of reports that might be relevant to PNN.

Radio and Television

     Extensive anecdotal evidence from a wide variety of sources conﬁrms that PNN
television broadcasts reach a wide audience. Audience interaction on call-in shows
and e-mails conﬁrm this. Still another indication of the impact of PNN broadcasts
is its mention by other news organizations. For example, on September 13, 2008, the
National Review Online blog, The Corner, mentioned that the Persian language news
organization TABNAK was concerned that deﬁciencies in Iranian state-run media
were driving Iranians towards U.S. international broadcasts. On November 15, 2008,
National Public Broadcasting’s program, All Things Considered, said that calls had
poured in to PNN in response to the election of Senator Barack Obama.

    InterMedia, a respected public opinion research ﬁrm, performs (through sub-
contractors) annual telephone survey measuring PNN television and radio audiences.
The last survey, conducted in December 2007, reports that 1.3 percent had listened
to a VOA radio broadcast in the previous week. However, the survey indicated that



        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   21 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




         29.5 percent of Iranians had watched a PNN television show in the previous week.
         As a part of the annual survey, InterMedia also conducts more in-depth research in
         which two dozen viewers assess and critique PNN television shows.12 These surveys
         help senior BBG and VOA management keep abreast of developments concerning
         PNN and also contribute to the IBB Ofﬁce of Performance Review’s yearly assess-
         ment of the work of each VOA language service.

              InterMedia conducted a telephone survey of 506 households in four Iranian
         cities to ascertain whether Iranians turned to U.S. international broadcasters (PNN
         and Radio Farda) for news on President Ahmadinejad’s visit to New York City in
         October 2007. Survey results indicate that 17 percent of Iranians, including a dispro-
         portionately large number of young and educated persons, watched the BBG broad-
         casting entities’ (including Radio Farda’s) coverage of the visit. Three-quarters of the
         17 percent who watched the BBG programming said that the coverage helped them
         understand the American reaction to the visit.

              InterMedia’s research provides miscellaneous interesting facts about television
         viewership. In November 2006, when PNN had 4 hours of television, its viewership
         was 20.2 percent. In January 2008, when PNN had 6 hours of original programming
         and an hour of the History Channel, viewership increased to 29.4 percent. In gener-
         al, for all television viewers, not just PNN viewers, there are daily trends. Viewership
         rises sharply from about 20 percent at 6:00 p.m., peaking at 65 percent at about 9:30
         p.m. and falling to 30 percent at 11:00 p.m. and to 10 percent at midnight.

              At the beginning of this inspection, some managers told the OIG team that
         VOA and InterMedia conduct telephone surveys from locations outside Iran, rather
         than doing audience surveys inside Iran, based upon their understanding that the
         Department took the position that no U.S. ﬁrm should conduct any business inside
         Iran. The OIG team veriﬁed that public opinion ﬁrms must apply for a license to
         conduct business in-country from the Department of Treasury Ofﬁce of Foreign
         Asset Control. Later, BBG clariﬁed that it already knew about this procedure but had
         decided at some point not to apply for the Ofﬁce of Foreign Asset Control license
         out of fear for the safety of the people on the ground in Iran. After research, ofﬁ-
         cials veriﬁed that BBG did not have a current license to conduct in-country surveys




         12
           PNN also broadcasts translated History Channel programs daily, but there is not yet any audi-
         ence research. Viewership ﬁgures for the History Channel programs could give a useful frame of
         reference for other PNN programs and would also help gauge audience interest in documenta-
         ries.


22 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




but that a stringer had a license. A BBG ofﬁcial said the decision not to apply for one
was based on an incident in 2002 of two Iranian researchers who were thrown in jail
when they published a report in Iran showing research results that were favorable to
the United States.

     Any entity, including government entities, must apply for the license to perform
in-country surveys. The Department acknowledged that there was sensitivity in-
volved in granting licenses to BBG for audience research because the research would
likely involve asking questions about satellite television dishes, which are illegal in
Iran. It would be to BBG’s beneﬁt to apply for the Ofﬁce of Foreign Asset Control
license that might prove valuable under the right circumstances. The OIG team made
an informal recommendation on this subject.

Internet

     The VOA PNN Web site reported approximately 36 million visits in 2007. Of
these visits, 5 million came directly through the VOA servers and 31 million were
through proxy servers. However, the Web site trafﬁc has apparently fallen off sharp-
ly. In December 2007, there were 6 million proxy server visits. In January 2008, that
number fell by half to 3 million. In November 2008, there were only 2 million. It
would be helpful to try to determine why this decrease has occurred. A VOA ofﬁcer
suggested that technical reasons might be involved and decreased public interest is
also a possibility. One way to collect important user information could come from a
customer satisfaction survey on the Web site itself. The OIG team made an informal
recommendation on this subject. (See discussion of PNN’s Internet in the Program
Implementation section of this report.) VOA management told the OIG team that
it has noted these ﬁgures and is reviewing them and the cause of any decrease.

Short Messaging Service

    InterMedia reported that, as of December 2007, 38 percent of Iranians had
used short messaging service (SMS) in the preceding 24 hours. According to the U.S.
Government Open Source Center, Iranians have used SMS to create social networks
within which they can spread humorous and subversive messages. An Open Source
Center analyst told the OIG team that the Iranian Government even uses SMS mes-
sages to warn the population of trafﬁc jams. OIG made an informal recommenda-
tion about PNN’s use of SMS. PNN does not use SMS because it would require an
in-country service center to support it.




        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   23 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



             InterMedia’s annual research is an important tool in BBG’s strategic plan of be-
         ing a research-driven organization. However, in the case of a language service that is
         building itself up rapidly to fulﬁll an urgent foreign policy need, more timely research
         would be invaluable for programming decisions. This could perhaps be along the
         lines of the $60,000 telephone survey about President Ahmadinejad in New York.
         VOA management acknowledges the importance of current research but must dis-
         tribute its research funds over all of its language services.



             Recommendation 10: The Broadcasting Board of Governors should under-
             take audience research surveys at least twice a year, funding permitting, to have
             information on audience preferences upon which to adjust its Persian News
             Network programming. (Action: BBG)




24 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                       RESOURCE MANAGEMENT

    In 2008, PNN was allocated about $8 million for general operating expenses
(non-salary) including $6 million from VOA’s domestic operating budget and $2
million carried over from the FY 2006 Emergency Supplemental. A more detailed
breakout of PNN’s funding is provided in Appendix C.
                                                                               13
             Persian News Network Expenditures and Staffing FY 2008

              Funding Source             Number         Salaries        General            Total
                                         of Direct                     Operating          Funding
                                           Hires                       Expenses

          VOA PNN’s General                  83        $8,413,549        $5,789,893     $14,203,442
           Operating Funds
          FY 2006 Emergency                                              $2,096,027        $2,096,027
             Supplemental

                    Total                                                $7,885,920      $16,299,469

    As indicated earlier, Persian Service expanded rapidly from FY 2006-2008 pri-
marily after Congress appropriated $36.1 million to BBG in the Emergency Supple-
mental Appropriations Act for Defense, the Global War on Terror, and Hurricane
Recovery, 2006 for Iran.14 The BBG allotted the $36.1 million for purposes shown
below:
     Broadcasting Capital Improvements to15:
       - build two television studios in Washington DC, and upgrade                    $13,826,000
           existing television studios and control rooms for PNN use in
           Washington DC, New York, Los Angeles, and London
       - purchase a transmitter for Radio Farda                                        $12,000,000
     International Broadcasting Operations
       - ramp up staffing, contractors, equipment, and licenses within                 $ 7,624,000
           PNN
       - enhance Radio Farda programming                                               $ 2,650,000

     Total                                                                             $36,100,000


13
  FY 2008 Actual expenditures provided by the CFO’s ofﬁce.
14
  Pub. L. No. 109-234, 120 Stat. 418.
15
  Funds for these projects were allotted to IBB-Engineering. The OIG team did not review those
projects during the PNN inspection.


             OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   25 .


                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




             PNN was allotted about $7.6 million of the FY 2006 funds to ramp up staff-
         ing, equipment and contractors, though PNN did work with IBB-Engineering and
         VOA Broadcast Operations to ensure the studios and supporting operations were
         adequate.

             The vast majority of funding allotted to PNN (including both regular and
         emergency supplemental funding) is spent on POVs and on the expenses of remote
         reporting (remotes) for the different programs. At the end of FY 2008, PNN had
         $146,000 remaining from the FY 2006 emergency supplemental primarily because
         PNN cancelled its plans (and reserved budget) to open a satellite bureau in the Mid-
         dle East. PNN had to scrutinize expenditures in FY 2009 given the limited amount
         of funding it was allotted during this continuing resolution. The current PNN acting
         director cancelled a project he did not think was cost effective, and PNN has cut
         back on its use of remotes that are costly. The OIG team left an informal recom-
         mendation that PNN also look to reduce its overtime expenditures, which averaged
         $1,815 per person for FY 2008.



         ADMINISTRATIVE SUPPORT
             The majority of PNN’s administrative support (entering and tracking obligations
         and payments, ordering equipment, processing travel vouchers, etc.) is provided by a
         newly hired GS-13 executive ofﬁcer, three GS-9 administrative assistants, and a con-
         tractor. A GS-11 production specialist also assists the television operations manager
         tracking PNN equipment and a contractor assists the staff director with PNN time
         and attendance. PNN also receives support from the Ofﬁce of Contracts, the Ofﬁce
         of Human Resources, and the ofﬁce of the Chief Financial Ofﬁcer (CFO), as well as
         the VOA Director’s ofﬁce.

              Administrative support for PNN has improved over the last few years. On a
         number of occasions in FY 2006 and FY 2007, Persian Service managers asked
         POVs to work though purchase orders that were not yet funded or in place, creating
         unauthorized commitments. In FY 2008, VOA contracting ofﬁcers reported only
         one unauthorized commitment, and it was unrelated to POV assignments. Files now
         generally contain proper supporting documentation. Improvements stemmed from
         a rigorous training program held in FY 2008 for all VOA administrative ofﬁcers, as-
         sistants, and managers. Both the Ofﬁce of Contracts and the CFO’s ofﬁce provided
         training on the steps and supporting documentation necessary to order equipment




26 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




and services and to make payments. Improvements also stemmed from the tempo-
rary assignment of VOA’s most seasoned program manager to that ofﬁce. The OIG
team heard complaints about the timeliness of contractor payments. It is also unclear
whether PNN has the correct number of administrative staff.

Timeliness of Contractor Payments

    Although the OIG team heard complaints that POVs were being paid late, over
the last year, most were actually paid within 30 days of submitting their invoice as
stipulated in their contracts and in accordance with the Prompt Payment Act. When
POVs were not paid in a timely manner, it was generally because invoices were not
complete. PNN did have some problems paying contractors on time in the months
after BBG implemented its new accounting system because staff were learning the
new system and processes and the system went down several times. These problems
have been largely solved.

Adequacy of Administrative Ofﬁcer/Assistant Stafﬁng

     A number of staff both within PNN and outside of PNN questioned whether
PNN has an adequate number of administrative staff. In 2008, PNN administra-
tive ofﬁcers incurred about $22,000 in overtime expenditures and, as indicated, two
contractors and a GS-11 production specialist also assist. It was difﬁcult assessing
whether PNN had adequate stafﬁng because workload among PNN’s administrative
assistants did not appear even, though all assistants are graded at the same level. The
OIG team is not aware of any review within PNN of the workload across adminis-
trative staff, though it may have been difﬁcult in the past to do this given the ramp
up. VOA also does not appear to have reviewed administrative ofﬁcer workload
across services. Given the amount of overtime earned in that ofﬁce and the volume
of work, VOA and PNN should ensure that the number of administrative ofﬁcers
within PNN is adequate. The CFO’s ofﬁce could provide the number of invoices
processed by each VOA service as a starting point.



   Recommendation 11: Voice of America should devise some method of mea-
   suring administrative ofﬁcer and administrative assistant workload and then
   ensure that Persian News Network administrative ofﬁcer stafﬁng is adequate.
   (Action: VOA)




        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   27 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



         VOA’S NEW YORK NEWS BUREAU
             Two OIG team members conducted a site visit of VOA’s New York City news
         bureau on November 14, 2008. They interviewed VOA and PNN personnel and
         toured the VOA facilities used by PNN. Funds budgeted for PNN were used to
         construct a second television studio in the New York ofﬁce. Staff pointed to some
         technical features that could have been preserved or added during construction of
         the studio at no additional cost. All agreed, however, that the studio worked and was
         available for other VOA services as needed. Two journeyman correspondents, whose
         work earn rave reviews, are assigned to the New York ofﬁce. Until recently, there was
         also a cameraman assigned to PNN’s New York correspondents, but that is no lon-
         ger the case, and the OIG team heard that some opportunities for good stories had
         been lost. Apparently there were discussions between the news bureau and PNN,
         but no decision had been made about engaging a replacement cameraman. The OIG
         team made an informal recommendation on this subject.




28 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                  MANAGEMENT CONTROLS



HUMAN RESOURCES MANAGEMENT
Recruitment and Personnel Practices

    When VOA received supplementary money to signiﬁcantly ramp up Persian
Service, it had to retain sufﬁcient staff to get the work done. Management’s focus
was understandably directed at getting new programs up and running quickly. To
this end, it engaged additional FTEs and contractors. This expedited hiring process
helped to create mistrust among some PNN employees and POVs. PNN manage-
ment is faced with this unnecessary distraction.

FTE/POV Distinction

     After discussions with FTEs and POVs and review of documents, the OIG team
determined that for many FTEs and POVs there is no functional difference in the
work they perform. For example, a stafﬁng document indicates that News and Views
has 13 FTE and four POVs writers; Late Edition has one FTE and 12 POV writers.
It is beyond the expertise of the OIG team to judge whether PNN’s overall use of
FTEs and POVs has in all cases accorded with Ofﬁce of Personnel Management
(OPM) regulations. It is indisputable, however, that the different regulatory regimes
governing POVs and FTEs have posed management challenges. For example, FTE
workers are required to spend a certain number of hours at the workplace while
individual POV contracts stipulate if speciﬁed hourly attendance is required. This
disparity has created some friction.

      Management is responding to these concerns. Management is struggling with
problems caused by unscheduled absences on the part of both FTEs and POVs, yet
it is constrained to treat people who do essentially the same job differently, depend-
ing on their status as a FTE or POV. Establishing the number and makeup of work-
ers needed for each program, as recommended elsewhere in this report, may make
this problem easier to resolve. IBB and PNN are working on clarifying procedures
for dealing with the distinctions between FTEs and POVs. The requirements for


        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   29 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




         POVs are written into each individual contract. Performance requirements for FTEs
         are prescribed by OPM.

         Classiﬁcation Level of FTE Positions

               PNN’s FTE positions were generally established at the GS-12 level and above,
         reﬂecting the Ofﬁce of Human Resources and PNN’s judgment that PNN needed
         full journeymen (the standard for GS-12), who could hit the ground running. This
         classiﬁcation level obviated the need for a formal skills or language test (that is gener-
         ally required for GS-11 and below positions), but applicants were required to demon-
         strate one year of experience at the GS-11 level.

             The Civil Service employment system, which governs FTEs, is designed to be
         transparent and fair and produce a well qualiﬁed work force, without regard to politi-
         cal and personal connections of the applicants. However, some PNN employees and
         contractors felt that PNN hired at the GS-12 level to avoid testing candidates that it
         favored. Language and skill tests are generally required at the GS-11 level and below.
         Some PNN employees and contractors also felt that candidates were hired at the
         GS-12 level because it could be done faster without testing. The Ofﬁce of Human
         Resources staff said that these tests could be administered and graded in a 6-week
         period.

              Successful hiring at the GS-12 level for jobs requiring detailed technical skills
         can be especially challenging, as it is hard to judge mastery of complicated technical
         skills from job application materials, although the effective use of interviews, work
         samples, and reference checks can address this challenge. Experienced VOA work-
         ers recalled that hiring at GS-9 levels, with language and other skill tests, provided
         more simple evidence of a basic skill level. It also ﬁt in well with a gradual career
         progression ladder to higher GS levels. Now that there is less urgency for PNN to
         hire quickly, management may be more attentive to hiring below the GS-12 level. It
         may also consider the beneﬁt of using a language test even when hiring at the GS-12
         level.

         Transparency/Favoritism

               Federal personnel laws and regulations are complicated; personnel complexi-
         ties for PNN in the last few years were exacerbated under the pressure of quickly
         building up a staff capable of producing 6 hours of original Persian-language pro-
         gramming daily. PNN staff complained about lack of transparency in hiring. Some
         characterized personnel practices as driven by cronyism and favoritism. Many said


30 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



that no job opened unless management had already chosen its candidate and that
promotions and step increases were motivated by favoritism.

    In an attempt to understand how these perceptions arose, the OIG team ex-
amined a limited selection of human resources records concerning some positions.
These show that several persons were hired under the broad position description of
International Broadcaster, whose vacancy announcement was open indeﬁnitely. In
August 2007, new human resources management decided to discontinue indeﬁnite
job openings and applicants were told that the position had closed and all positions
had been ﬁlled. However, another International Broadcaster position, with a differ-
ent announcement number but the same job description, opened up again within the
month. The new vacancy announcement was viewed with suspicion. As a result, re-
jected applicants, some of whom already worked at PNN as POVs, were required to
go through the tedious process of applying once again. At least one person repeated
this process at least twice and eventually got hired.

     In another case, an FTE job opening was announced in a timeframe that enabled
contractors who were just completing one year of work at PNN to be eligible. The
contractors could use their 1 year of contracting experience to fulﬁll the requirement
of one year’s experience at the next lower GS level. While this might have been en-
tirely permissible, the practice contributed to a perception that hiring decisions had
been made before the job opening is circulated.

     VOA could improve the transparency of its human resource decisions by circu-
lating a newsletter with information about job openings, recent hires, promotions,
departures or travel assignments or general interest items. The OIG team made an
informal recommendation on this subject.

Executive Producer Positions

    PNN’s FTE supervising executive producer (GS-14) hired two FTE executive
producers (GS-13) who were his colleagues at ABC News. (Other ABC News alumni
perform under POV contracts.) A perception of cronyism that can accompany such
hiring decisions creates ill will and can hamper the employee’s effectiveness in the
workplace.

     The executive producers, recruited for their long experience in the nuts-and-
bolts of commercial television news production, do not have an adequate platform
on which to use their skills. Their ability to contribute to the journalistic product and
to conduct professional exchanges with their Persian-speaking colleagues, includ-
ing the managing editors, is limited by language. As one PNN worker put it: “How


        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   31 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




         could you produce Meet the Press without an English-speaking person in charge?”
         Through the exercise of good will and professional discipline, the team of a Persian-
         speaking managing editor and a non-Persian speaking executive producer can work
         successfully together, but the arrangement is not the optimal long-term solution.

             PNN management said that it is very difﬁcult to hire Persian speakers who have
         experience in television production. In the past, one such person was hired, but a
         manager told the OIG team that person found the commute from New York City
         too demanding. Another Persian speaker was on the verge of accepting a position
         but was afraid to accept the job for fear that there would be retaliation against family
         members in Iran. VOA management told OIG that most television executive pro-
         ducers throughout VOA do not speak the broadcast languages involved because of
         the difﬁculty in ﬁnding executive producers who have both the television production
         expertise and the language skills. In addition, PNN is not necessarily able to compete
         with the salaries of commercial television.

         Performance Evaluations/Feedback on Job Performance

              PNN managers and human resources ofﬁcials report that PNN conducts annual
         performance evaluations of its FTEs, as required by law. However, PNN Persian-
         speaking staff told the OIG team that the employee evaluation process was perfunc-
         tory. Some said that they were just given a competed form to sign and were discour-
         aged from reviewing it or adding to it. There were also complaints that there were
         not opportunities to discuss job advancement and career aspirations with supervisors
         and that there were not inadequate mechanisms to correct problems in job perfor-
         mance. It is difﬁcult to verify these assertions because there is no document that can
         prove or disprove them. However, a single senior Persian-speaking person supervised
         the entire Persian-speaking staff. His many duties pose a challenge to close supervi-
         sion and guidance of the large staff. As recommended elsewhere, PNN should estab-
         lish appropriate reporting lines that provide for the exercise of supervisory authority
         over day-to-day performances. In addition, the whole staff and PNN’s products
         would beneﬁt from a meaningful adherence to the performance evaluation system.
             Recommendation 12: Voice of America’s Persian News Network should,
             within 6 months, provide training to managers in conducting annual perfor-
             mance evaluations, speciﬁcally discussing the employee’s duties and perfor-
             mance. The training should also instruct ﬁrst-line supervisors how to conduct
             interim reviews of job performance and career advancement and how to pro-
             vide measured feedback to employees at other times, as appropriate. (Action:
             VOA)



32 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



    During this inspection, OPM was conducting an evaluation of BBG’s use of
personnel management authorities of managers and human resources professionals.
It was evaluating BBG’s human capital programs with a particular focus on strategic
alignment, talent management, leadership and knowledge management, and results-
oriented performance culture. It reviewed personnel actions and related records. The
OIG team was in contact with the OPM team, but the results of its evaluation were
not available at the time of this writing.

Training

     Training is important to PNN’s ability to fulﬁll its mission. In the OIG team’s
discussions with PNN managers, staff, and POVs, a need for training was a constant
theme. This includes training in technical skills for journalism, television produc-
tion, and Internet; training for managers; and team building. When PNN was under
pressure to rapidly increase its television capabilities and staff, it was not able to hire
enough Persian speakers with the technical skills for television. Likewise, if PNN
could ﬁnd Persian speakers with television skills, they did not necessarily have expe-
rience or training in U.S. journalism standards. As PNN enhances its Internet pres-
ence, it ﬁnds the need to train new employees with limited Internet skills or to retrain
former VOA radio broadcasters. Finally, the sheer size of the language service with
its generational, political, and cultural mix warrants managerial training to assist with
these challenges.

    There are different training rules for FTEs and POVs. In general, Federal regula-
tions say that POVs are not eligible for training because they are expected to possess
the skills required to provide the product. However, PNN can request an exception
to train POVs. The justiﬁcation is that it is hard to hire people qualiﬁed in Persian,
and many contractors need to have skills in several areas. The Ofﬁce of Training
works with the Ofﬁce of Contracts to determine the requirements of such training
regulations.

    The availability of training is tied to the budget and timing. The budget may
ﬂuctuate or be uncertain, particularly during a continuing resolution. Sometimes, in-
dividuals ﬁnd it hard to take off the time to be trained. A good deal of training that
occurs in PNN is informal and done by managers or more experienced coworkers.
A few new employees said that they had to fend for themselves to learn the ropes.
An apparently successful, though limited, option has been the engagement of two
television specialists as contractors to assist in television production while mentoring
young workers. While this one-on-one approach has received mixed reviews, it ap-
pears to raise the bar for coworkers.



        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   33 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



             Television training is the priority for PNN. The head of VOA’s television en-
         hancement team actively participates in prioritizing classes and trying to provide the
         training that people need. According to IBB’s Ofﬁce of Training and Development,
         there are numerous relevant technical television courses in its course catalog IBB
         Broadcast Academy. Courses speciﬁcally for production skills are:

              TV01: Basic TV Production Skills        

              TVP2: Training for Television Producers       

              TVP3: Basic Digital Videotape Editing 

              TVP4: Producing TV Stories Using Video Feeds 

              TVP5: Digital Video Camera, Audio and Lighting Techniques 

              TVP6: Crafting Field Reports with DV Camera Package or Crew 

              TVP7: Advanced Digital Videotape Editing for Journalists 

              TVP8: Creating Short Feature Stories      

              TVP9: Individual VJ Consulting Session




             Recommendation 13: Voice of America should assess the need for technical
             production training of the Persian News Network workers and provide appro-
             priate training. (Action: VOA)


             Some of the executive producers have received managerial training. This is
         important for all managers because they are working in a high-stress environment
         putting shows on the air daily and dealing with two cultures and languages. The OIG
         team heard repeatedly from workers that the relations between workers and manag-
         ers were strained, as were the relations among executive producers, managing editors,
         and anchors. PNN’s acting director is trying to improve the situation by bringing
         together parties who disagree and talking over their differences.



             Recommendation 14: Voice of America should provide its Persian News
             Network managers appropriate managerial training to handle the high-stress en-
             vironment and to deal with two cultures and languages and various political and
             religious points of view. (Action: VOA).




34 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



Professional Behavior

     The daily working environment at PNN at needs serious attention. The OIG
team discussed the problem with BBG and VOA senior managers as well as with the
many workers who were interviewed. Virtually everyone voluntarily brought up the
subject of disgruntled employees and destructive rumors. Some said that it was the
most unpleasant place they had ever worked, citing raised voices and the lack of civil,
professional conduct when disagreements arose. The OIG team received many unso-
licited documents or e-mails full of grievances, some from anonymous writers. The
personal questionnaires also gave examples of some workers not showing respect for
other workers or managers.

     A senior VOA ofﬁcial said PNN’s biggest challenge was maintaining an at-
mosphere of trust and mutual respect. Another hoped that the atmosphere would
change when PNN employees were encouraged to tightly focus on creating profes-
sional products. It is possible that the situation could be improved if this were the
case and if human resource decisions were better communicated to the staff. VOA
management and BBG’s general counsel are addressing these issues.

    The OIG team spoke with IBB’s Ofﬁce of Training and Development about
possible ways to improve the situation. An IBB training ofﬁcial said that PNN needs
training that gets to the root of problems. IBB training could provide a focused
session on team building. It could bring in an outside vendor to meet with the staff
and managers to uncover all issues and to listen to employee concerns. Since PNN is
so large, not everyone could participate, but there could be representatives from all
segments of the operation. One or two town hall meetings would explain what the
training was to achieve. It would convey the message that “we hear you and we are
working to improve things.”



   Recommendation 15: Voice of America, in coordination with the Interna-
   tional Broadcasting Bureau’s Ofﬁce of Human Resources, should provide the
   appropriate team building training for management and staff to address unac-
   ceptable professional behavior in the Persian News Network. (Action: VOA, in
   coordination with IBB)




        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   35 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




           PERSONAL PROPERTY MANAGEMENT
             VOA and PNN are accountable for approximately $400,000 of non-expendable
         property including, among other items, laptops, desktops, portable hard drives, cam-
         corders, transmitters, and receivers. Most of the equipment listed on PNN’s invento-
         ry was purchased in 2007 and 2008. Although PNN has some property management
         procedures in place, PNN’s inventory is not accurate and property management
         controls need strengthening.

             When Persian Service moved out of the West and South Asia Division, PNN
         became responsible for its own property. PNN had difﬁculty creating its initial inven-
         tory list because records in the West and South Asia division were not kept up to
         date. PNN started with a list of equipment PNN staff reported they had. The cur-
         rent property control ofﬁcer reported that it took him months just before and after
         PNN was created to enter equipment into the system. Given competing priorities
         during the ramp up, PNN staff stated they had limited time to ensure that all equip-
         ment in PNN staff ’s possession was bar-coded and entered into the system. This,
         coupled with problems IBB- and VOA-wide, brings into question the completeness
         of PNN’s initial inventory.16

              PNN staff have also had difﬁculty keeping inventory records up to date. While
         purchased equipment is generally bar-coded, it is not always entered into the prop-
         erty management system in a timely manner. Property custodian changes are also
         not kept up to date in the system. Additionally, PNN never ﬁnished its March 2008
         physical inventory. Although PNN asked all property custodians to verify they had
         equipment shown in their custody, PNN did not follow up on all missing equipment
         nor report the items missing. PNN also found equipment during the inventory that
         was not on their list but never fully resolved why the items were left off.

             PNN recently assigned property management responsibilities to a GS-11 produc-
         tion specialist; she is sorting through hand receipts and receiving reports to update
         the property management system. While the OIG team is encouraged by this assign-
         ment, PNN needs to ensure that all nonexpendable property purchased with PNN-
         allocated funds (including no-year 2006 emergency supplemental funds and normal
         operating funds) are accounted for. PNN should identify equipment purchases from




         16
           Non-expendable equipment management within BBG, including within PNN, has required at-
         tention for the last few years.


36 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




obligation reports and delivered equipment serial numbers from receiving reports
kept in payment ﬁles. The OIG team also made an informal recommendation that
PNN report all missing equipment to IBB’s Ofﬁce of Engineering and Technical
Services and that PNN ensure that equipment reported in Persian Service staff pos-
session at the time of a 2006 physical inventory, but not the 2008 inventory, has been
accounted for.

   Recommendation 16: Voice of America’s Persian News Network should
   identify all nonexpendable property purchases since 2006 and ensure that prop-
   erty is accounted for in the property management system. (Action: PNN)


    It was difﬁcult determining what equipment each PNN employee had access
to in order to perform their jobs. Some equipment, such as Windows laptops, are
maintained by IBB-Engineering but can be checked out to anyone in VOA. PNN
employees, therefore, can check out laptops from both IBB-Engineering and from
PNN. Some PNN employees had a Windows laptop from IBB and an Apple laptop
from PNN. Additionally, at least one PNN employee from a domestic bureau had
used equipment assigned to another VOA service. The OIG team made an informal
recommendation that PNN managers ensure they are aware of all equipment em-
ployees have access to before assigning them additional PNN equipment.

    At the beginning of the inspection, about 31 percent of PNN’s equipment was
not yet assigned to a property custodian. The PNN director was therefore account-
able for this property if it was lost or stolen. Unassigned equipment was being used
by POVs, PNN’s graphics unit, and PNN radio. During the inspection, PNN des-
ignated property custodians for most of this equipment. The OIG team made an
informal recommendation that PNN assign property custodians for all equipment.



FINANCIAL MANAGEMENT AND PROCUREMENT
    PNN budgeting from FY 2007 - FY 2009 grew signiﬁcantly because of the
programming and organizational changes that had occurred over that period. PNN’s
budget is broken down by program or unit using function codes with one overhead
category for the Ofﬁce of the Chief as shown in Appendix C. Changes between FY
2007 and FY 2009 included but were not limited to:

   • 	 when PNN became a separate division, the PNN funding was moved out of
       the West and South Asia Division in FY 2007



        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   37 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



              • 	 when Radio Farda was consolidated under RFE/RL management, the Radio
                  Farda funding was removed from PNN’s budget mid-FY 2008

              • 	 graphics unit funding had been included in the Ofﬁce of the Chief ’s budget
                  in FY 2008 but was added as a separate function code in FY 2009

              • 	 History Channel, Women’s View, some Persian radio, and some Late Edition ex-
                  penditures occurring in FY 2008 were funded with the FY 2006 Emergency
                  Supplemental but added to PNN’s general operating budget in FY 2009

              • 	 Early Edition funding was added into the News and Views function code mid-
                  2008

             The accounting system conversion occurring in FY 2008 also complicated bud-
         geting. The OIG team believes the stabilization of PNN operations will facilitate
         budgeting in the future.

             As noted, most of PNN’s budget is allocated to POV payments. The POV pay-
         ment ﬁles that the OIG team reviewed during this inspection contained proper Au-
         thorized Representative of the Contracting Ofﬁcer (ARCO) signatures denoting that
         contractor assignments were completed. However, the ARCO’s signature was not
         always legible and the ARCO’s name was not printed on the invoices. Additionally,
         POV contracts did not always contain the name of the ARCO, only the name of the
         program the POV was working on. The OIG team made informal recommendations
         regarding both of these issues.




38 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





              LIST OF RECOMMENDATIONS

Recommendation 1: Voice of America should develop and articulate a statement
  of Persian News Network program goals and objectives consistent with Voice
  of America’s mission and ensure that it is disseminated and understood. (Action:
  VOA)

Recommendation 2: Voice of America should, as appropriate, revise the Persian
  News Network’s organizational structure to clarify the lines of responsibility and
  authority. (Action: VOA)

Recommendation 3: Voice of America should develop and implement an internal
  communication plan for the Persian News Network to increase the interaction
  between its elements, both horizontally and vertically, and to share important in-
  formation with the staff. (Action: VOA)

Recommendation 4: Voice of America should review its programming, including
  the number of hours, and determine if changes should be made in order to in-
  crease quality. (Action: VOA)

Recommendation 5: Voice of America should conduct an assessment of the num-
  ber of workers needed for each of its television programs and allocate its human
  resources accordingly. (Action: VOA)

Recommendation 6: Voice of America should continue to develop and implement
  a plan to build the Persian News Network’s Web presence into an interactive 24/7
  operation, with timelines and measurable milestones. This Web presence should
  complement Radio Farda’s Web efforts. (Action: VOA)

Recommendation 7: The Broadcasting Board of Governors should, in coordina-
  tion with Voice of America, in the context of its annual language service review
  process, determine whether Voice of America radio broadcasting in Persian
  should be discontinued or reinvigorated. If it is to be reinvigorated, it should be
  given a clear mission as an integral part of the Persian News Network, along with
  a clear estimate of resources to accomplish this mission. (Action: BBG, in coordi-
  nation with VOA)




        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   39 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




         Recommendation 8: Voice of America should develop a plan to create and imple-
           ment a Persian-language news desk, including a timetable, measurable milestones,
           and stafﬁng implications. (Action: VOA)

          Recommendation 9: Voice of America should integrate its Persian-language news
            desk with its Internet operation, making regularly updated translations of news
            stories available to the Web site staff on a share drive or an Intranet site. (Action:
            VOA)

         Recommendation 10: The Broadcasting Board of Governors should undertake
           audience research surveys at least twice a year, funding permitting, to have infor-
           mation on audience preferences upon which to adjust its Persian News Network
           programming. (Action: BBG)

         Recommendation 11: Voice of America should devise some method of measuring
           administrative ofﬁcer and administrative assistant workload and then ensure that
           Persian News Network administrative ofﬁcer stafﬁng is adequate. (Action: VOA)

         Recommendation 12: Voice of America’s Persian News Network should, within
           6 months, provide training to managers in conducting annual performance evalu-
           ations, speciﬁcally discussing the employee’s duties and performance. The training
           should also instruct ﬁrst-line supervisors how to conduct interim reviews of job
           performance and career advancement and how to provide measured feedback to
           employees at other times, as appropriate. (Action: VOA)

         Recommendation 13: Voice of America should assess the need for technical pro-
           duction training of the Persian News Network workers and provide appropriate
           training. (Action: VOA)

         Recommendation 14: Voice of America should provide its Persian News Network
           managers appropriate managerial training to handle the high-stress environment
           and to deal with two cultures and languages and various political and religious
           points of view. (Action: VOA).

         Recommendation 15: Voice of America, in coordination with the International
           Broadcasting Bureau’s Ofﬁce of Human Resources, should provide the appropri-
           ate team building training for management and staff to address unacceptable pro-
           fessional behavior in the Persian News Network. (Action: VOA, in coordination
           with IBB)

         Recommendation 16: Voice of America’s Persian News Network should identify
           all nonexpendable property purchases since 2006 and ensure that property is ac-
           counted for in the property management system. (Action: PNN)


40 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





           INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by or-
ganizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

Proper use of the Persian language is a point of contention and source of friction
in PNN. Staff members vary greatly in their connection to and experience with the
language. Some left Iran 30 years ago and have not returned. Others left Iran quite
recently and are accustomed to contemporary Persian. Still others are native speak-
ers but were born and raised in the U.S., learning Persian from their parents. Going
through the process of writing a style manual, and gaining buy-in from staffers to
use it, might signiﬁcantly reduce unnecessary tension.

Informal Recommendation 1: VOA should assign Persian News Network staff
to write and disseminate a style manual for all persons who translate material into
Persian. (Action: VOA)

Producers ﬁle a report after each program, but some workers felt the need for more
feedback on their technical contributions and a daily system of process assessment.

Informal Recommendation 2: Voice of America’s Persian News Network should
establish a system whereby television producers could immediately give post-show
feedback to those who worked on the show. (Action: VOA)

In order to conduct in-country surveys, BBG needs a license from the Ofﬁce of
Foreign Asset Control of the Department of Treasury. There may come a time when
the security situation is favorable to in-country audience research.

Informal Recommendation 3: The Broadcasting Board of Governors should peri-
odically consider applying for a license from the Ofﬁce of Foreign Asset Control of
the Department of Treasury to enable its audience research contractor to conduct an
in-person survey within Iran.

According to recent statistics obtained by VOA, there has been a sharp decrease in
visits to PNN’s Web site.


        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   41 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




         Informal Recommendation 4: Voice of America, in coordination with the Inter-
         national Broadcasting Bureau, should assess possible technical causes for the de-
         crease in visits to the Persian News Network’s Web site.

         A good way to obtain input about PNN’s Web site is through a customer satisfac-
         tion survey.

         Informal Recommendation 5: Voice of America should create a Web site survey
         to solicit information about customer satisfaction.

         PNN overtime totaled $151,000 in FY 2008 — an average of $1,815 per person.
         Now that the PNN ramp-up is complete, that amount of overtime expenditures may
         no longer be justiﬁed.

         Informal Recommendation 6: The Voice of America’s Persian News Network
         should review overtime expenditures by individuals and ensure that any authorized
         overtime is necessary.

         VOA’s New York news bureau has television studios. Recently the cameraman pro-
         viding services left his position and was not replaced. Correspondents said that there
         had been discussions between the news bureau and PNN about hiring a replacement.

         Informal Recommendation 7: Voice of America’s Persian News Network should
         consider once again providing cameraman services to support its New York-based
         correspondents.

         In spite of OPM regulations, many PNN workers felt that PNN’s hiring and avail-
         ability of positions were not transparent. This appeared to affect staff morale. One
         way to achieve more transparency and to improve morale in an environment of
         teamwork is to have a staff newsletter.

         Informal Recommendation 8: Voice of America should institute an internal
         newsletter for PNN staff, recording such events as arrivals, departures, job openings,
         promotions, travel, births, marriages, accomplishments, awards, and other items of
         general interest.

         Equipment that could not be located during PNN’s March 2008 inventory was not
         reported missing or stolen to IBB-Engineering.

         Informal recommendation 9: Voice of America’s Persian News Network should
         report missing or stolen equipment from the March 2008 physical inventory.




42 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




Some equipment shown in Persian Service staff possession during a 2006 physical
inventory was not reﬂected on PNN’s 2008 inventory list. During the inspection,
PNN staff determined why some, but not all, of this equipment was not on the 2008
inventory list.

Informal Recommendation 10: Voice of America’s Persian News Network should
determine why equipment shown in Persian Service staff possession in 2006 is not
reﬂected on the Persian News Network’s 2008 inventory.

PNN employees can check laptops and other equipment out from both PNN and
IBB-Engineering.

Informal Recommendation 11: Voice of America’s Persian News Network should
ensure that all managers are aware of the equipment their staff has checked out be-
fore assigning them additional PNN equipment.

Some of PNN’s equipment, such as traveling laptops, are not yet assigned to a prop-
erty custodian and are therefore still under the PNN director’s accountability.

Informal Recommendation 12: The Persian News Network should assign prop-
erty custodians for all PNN equipment and the custodians should set up a method
of tracking who has the items.

POV contracts did not always denote the individuals who could accept POV work as
ARCOs. Additionally, ARCO signatures on POV invoices were not always legible nor
were the ARCOs’ names printed on the invoices.

Informal Recommendation 13: Voice of America’s Persian News Network should
ensure that the Authorized Representative of the Contracting Ofﬁcer’s name is
printed on Purchase Order Vendor invoices.

Informal Recommendation 14: Voice of America’s Persian News Network should
request that contracting ofﬁcers denote in purchase order vendor contracts the indi-
viduals serving as Authorized Representatives of the Contracting Ofﬁcer.




        OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   43 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





44 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





             PERSIAN NEWS NETWORK
              PRINCIPAL OFFICIALS

Position                                             Name                             Arrival Date


Director                                     Alex Belida                          09/08
Executive Editor                             Dr. Kambniz Mahmoudi                10/06
Staff Director                               Benjamin Jonas                       02/07
Operations Manager                           Scot Riddlesberger                   05/06
Senior Executive Producer                    Joy Wagner         POV 11/05; staff 03/06
Executive Producer                           Amy Katz           POV 05/06; staff 03/07


Executive Producer                           Gareth Conway                                    09/08
Executive Producer                           Sue Shand                                        04/08
Executive Producer                           Susan Jackson                                    05/08
Managing Editor                              Ali Sajjadi                                      07/07
Managing Editor                              Behrouz Souresraﬁl                               08/07
Managing Editor                              Houmoyoun Majd                                   02/04
Managing Editor                              Behrouz Nikzat     POV 03/80; staff              07/80
Managing Editor                              Ali Farhoodi       POV 04/80; staff              01/81
Managing Editor                              Hossein Kangarloo                                12/83
Senior Editor/anchor                         Setareh Derakhshesh                              02/99


    Dates reﬂect when the staff joined PNN or the Persian Service. Some staff en-
tered duty at VOA in capacities outside of PNN or Persian Service at early dates.




       OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   45 .


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





46 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                             ABBREVIATIONS

ARCO                        Authorized Representative of the Contracting Ofﬁcer
BBC                         British Broadcasting Corporation
BBG                         Broadcasting Board of Governors
CFO                         Chief Financial Ofﬁcer
FTE                         full-time employee
HR                          human resources
IBB                         International Broadcasting Bureau
OIG                         Ofﬁce of Inspector General
OPM                         Ofﬁce of Personnel Management
PNN                         Persian News Network
POV                         purchase order vendor
RFE/RL                      Radio Free Europe/Radio Liberty
SMS                         short messaging service
VOA                         Voice of America




       OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   47 .


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





48 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





      APPENDIX A: VOICE OF AMERICA
                CHARTER
To protect the integrity of VOA programming and define the organization's mission, the VOA
charter was drafted in 1960 and later signed into law on July 12, 1976, by President Gerald Ford.
It reads:

The long-range interests of the United States are served by communicating directly with the
peoples of the world by radio. To be effective, the Voice of America must win the attention
and respect of listeners. These principles will therefore govern Voice of America (VOA)
broadcasts.
       1. VOA will serve as a consistently reliable and authoritative source of news.
       VOA news will be accurate, objective, and comprehensive.
       2. VOA will represent America, not any single segment of American society,
       and will therefore present a balanced and comprehensive projection of
       significant American thought and institutions.
       3. VOA will present the policies of the United States clearly and effectively,
       and will also present responsible discussions and opinion on these policies.
       (Public Law 94-350)




       OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   49 .


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





50 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





APPENDIX B: PNN ORGANIZATION CHART




  OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   51 .


               SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





52 .   OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009


                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





     APPENDIX C: PERSIAN NEWS NETWORK
                  FUNDING17

                                                                                     FY 2008
                      PNN Show/Unit                                                 Spending

 News & Views                                                                         $1,918,995
 Office of the Chief (including remotes)                                               1,739,403
 Women’s View                                                                            937,420
 Broadcasting in Persian Internet & Radio                                                872,616
 Late Edition                                                                            770,355
 4th Hour Newstalk                                                                       412,097
 History Channel                                                                         408,473
 Radio Farda                                                                             366,487
 Round Table                                                                             282,582
 New Media Project                                                                       102,591
 PNN Graphics                                                                             74,901

 Total:                                                                               $7,885,920



                                                                                     FY 2008
                   Budget Object Class                                              Spending


 Talent18                                                                             $5,129,465
 Satellite Transmissions (Remotes)                                                     1,127,000
 Other Contractual Services (including acquired
 programming for the History Channel)                                                     708,614
 Travel                                                                                   356,783
 Telephone Tolls                                                                          130,274
 Overseas Stringers                                                                       128,845
 Travel Grant                                                                             105,641
 London Studio                                                                             76,762
 Office Equipment/Machine                                                                  74,183
 Other                                                                                     48,353

 Total:                                                                               $7,885,920




 FY 2008 Actual nonsalary general operating expenditures provided by the CFO’s ofﬁce.
17

 Payments generally made to POVs. Includes payments for combinations talent, producers tal-
18

ent, Internet POV, and all other talent (Budget Object classes: 2573, 2578, 2580, and 2540).


          OIG Report No. ISP-IB-09-27, Inspection of Voice of America’s Persian News Network - March 2009   53 .


                       SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
